Audit of USAID/Nicaragua’s Agricultural
Activities

Audit Report No. 1-524-01-007-P

July 20, 2001




          Regional Inspector General / San Salvador
U.S. A GENCY FOR
INTERNATIONAL
 DEVELOPMENT

RIG/San Salvador


July 20, 2001

MEMORANDUM

FOR:               USAID/Nicaragua Director, Marilyn A. Zak

FROM:              Regional Inspector General/San Salvador, Timothy E. Cox

SUBJECT:           Audit of USAID/Nicaragua’s Agricultural Activities (Report No.
                   1-524-01-007-P)

This memorandum transmits our final report on the subject audit. The report
contains five recommendations for your action. Final management decisions have
been reached for all five recommendations and final action has been taken for
recommendation Nos. 1, 3, 4, and 5. Final action for recommendation No. 2 can
be recorded when planned actions have been taken. For this recommendation,
please coordinate final action with the Office of Management Planning and
Innovation (M/MPI/MIC).

I appreciate the cooperation extended to the audit staff during this engagement.




                                                                                   1
Table of   Summary of Results                                             3
Contents
           Background                                                     4

           Audit Objectives                                               6

           Audit Findings                                                 6

                  Are USAID/Nicaragua’s agricultural activities on
                  schedule to achieve the planned outputs?                6

                         Program Element on Coffee Quality Needed
                         To Be Re-Planned                                 6

                         Residual Credit Funds Needed To Be Programmed
                         for Reconstruction Activities                    7

                         Actions Were Needed to Better Plan and
                         Monitor Road Construction                        8

                  Has USAID/Nicaragua implemented an adequate
                  monitoring system for its agricultural activities?      9

                         A Performance Monitoring Plan Was Needed        10

                         Data Reliability Assessments Were Needed        11

           Appendix I – Scope and Methodology                            12

           Appendix II – Management Comments                             13

           Appendix III – Planned Versus Actual Outputs for USAID/
                         Nicaragua’s Agricultural Activities             20




                                                                              2
Summary of   The Regional Inspector General/San Salvador performed this audit as part of its
Results      fiscal year 2000 audit plan. The audit’s two objectives were to determine whether
             or not USAID/Nicaragua’s agricultural activities were on schedule to achieve
             their planned outputs and whether the mission had implemented an adequate
             system to monitor these activities. (See page 6.)

             Regarding the first objective, USAID/Nicaragua’s agricultural activities were on
             schedule to achieve the planned outputs, except for a planned activity to improve
             coffee quality, another to create a self-sustaining credit facility, and a program to
             rehabilitate roads. (See page 6.)

             The quality of coffee produced in Nicaragua was to be improved under an
             agreement with the Cooperative League of the U.S.A. (CLUSA). However, most
             elements of this program segment of the work plan were behind schedule. This
             program element needed to be re-planned. (See page 6.)

             CLUSA’s agreement also called for the planned $2.4 million economic development
             fund to be self-sustaining over the long term. However, USAID reduced the credit
             fund to $1.1million and CLUSA has not been able to find a local entity to manage
             the credit fund. According to a CLUSA official, these developments called into
             question the feasibility of creating a self-sustaining credit fund by the end of the
             reconstruction program. USAID/Nicaragua needed to find a use for unused credit
             funds that would contribute to the reconstruction effort. (See page 7.)

             As of November 2000, CARE had rehabilitated about 321 kilometers of its revised
             project target of 850 kilometers rehabilitated rural roads. This left 529 kilometers to
             be completed before the project completion date of December 31, 2001. In order to
             accomplish this goal, CARE needed to (1) complete the selection of the roads to be
             rehabilitated (2) negotiate and sign agreements with the local municipalities where
             the roads are located (3) perform detailed planning for each project selected and (4)
             execute and complete the projects during the dry season in Nicaragua. Firm
             milestones for these actions were needed to help ensure that planned road segments
             could be rehabilitated before the project completion date. In addition,
             USAID/Nicaragua needed to obtain mapping information from CARE to facilitate
             monitoring of CARE’s activities. (See page 8.)

             Regarding the second audit objective, although the mission had implemented a
             system to monitor its agricultural activities, it had not developed a performance
             monitoring plan as required by USAID guidance. We also found that the mission
             had not performed reliability assessments of the data received from the
             implementing sponsors that is used in mission performance reporting. (See page 9.)

             The report makes five recommendations to address these issues. (See pages 7
             through 11.)




                                                                                                     3
Background   Hurricane Mitch was the worst natural disaster in two centuries to hit Central
             America. The small farmer, the future of Nicaragua, suffered greatly. More than 25
             percent of the country’s cropland was damaged and eroded by the flooding. Mitch
             caused extensive crop losses in the north and northwest regions of the country. To
             understand the effect that Hurricane Mitch had on crop production, it is necessary to
             understand that Nicaragua has three annual plantings and harvests: the first is the
             Primera, the second is the Postrera, and the third is the Apante. Postrera red bean
             productionwhich accounts for almost half of annual bean productionfell by 76
             percent, maize by 62 percent, sesame by 83 percent and vegetables by 95 percent.
             The rains and flooding not only reduced the harvests; they also destroyed much of
             the seed stock needed for both the Apante and the 1999 Primera growing seasons.

             Mitch also caused widespread soil erosion and deforestation, and destroyed
             agricultural infrastructure, including soil and water conservation works, storage
             facilities, wells, irrigation and water control structures, and feeder roads. An
             estimated 11,550 hectares were permanently destroyed. Another 308,000 hectares
             (25 percent of the total cropland) were seriously damaged.

             The audit focused on the activities funded by the supplemental appropriation for the
             Central America and the Caribbean Emergency Disaster Recovery Fund
             (CACEDRF) which was used by USAID/Nicaragua to provide $35.2 million in
             funding to the Cooperative of the U.S.A. (CLUSA), CARE, Catholic Relief Services
             (CRS), Chemonics, and World Relief Corporation (WRC). All of the programs are
             scheduled to end on December 31, 2001.

                               Organization        USAID Amount Cost Sharing
                              CARE                     $8,292,683    $425,906
                              CLUSA                     6,900,000        none
                              Chemonics                 7,321,942        none
                              WRC                       6,366,026    $945,171
                              CRS                       6,333,020 $3,326,007
                              Total                   $35,213,671 $4,697,084

             Agriculture Activities Financed by USAID/Nicaragua

             CARE - The principal focus of CARE’s $8.3 million Cash-for-Work program is to
             provide rural employment to people affected by Hurricane Mitch. Work projects are
             to include rehabilitation of rural roads, stone/earth bridges and fords, retaining walls
             and clearing of drainage channels. However, rehabilitation of rural roads are to be
             the most important activity.

             At program inception, the original goal was to rehabilitate a total of 1,400 kilometers
             of roads in Nicaragua, with the principal aim of providing income through
             employment. However, the mission and CARE later agreed that the roads
             rehabilitated should have a longer useful life and meet uniform road specifications.


                                                                                                    4
However, implementation of this new standard raised the cost per kilometer from
$2,000 per kilometer, to as much as $6,000 per kilometer, depending upon the
conditions at the individual work sites. As a result, the mission and CARE agreed to
lower the project outputs for the total number of kilometers rehabilitated from 1,400
to 850 kilometers.

Cooperative League of the U.S.A. – The $6.9 million program being implemented
by CLUSA had four components. CLUSA will undertake the incremental technical
assistance and training component itself with the remaining three components being
implemented through subcontracts with ATMA-economic development fund
component, Thanksgiving Coffee-coffee quality restoration component, and
Zamorano-watershed technical assistance and training component.

Under its component, CLUSA will directly provide technical assistance to Hurricane
Mitch-affected farmers in cash crop production, agribusiness, cost accounting, and
post harvest handling, and marketing. The Economic Development Fund under
ATMA is a credit facility for small farmers to finance production, post-harvest
processing and marketing activities that will significantly increase farmer income.
Thanksgiving Coffee will provide essential expertise for restoring, constructing,
establishing, upgrading, and training cooperatives or associations in development of
field level coffee tasting/quality control facilities. Zamorano’s community-based
watershed management program will train local farmers in soil conservation,
sustainable hillside farming and basic organic farming techniques.

Chemonics – The two major elements comprising the $7.3 million Chemonics
program are the $3.3 million special activity fund, and long and short-term
consultancies. Both these elements are to increase the incomes of small farmers by
improving the variety, quality and marketing of agricultural products. The special
activity fund provides grants and contracts to cooperatives for activities that will
result in increased incomes that will be sustainable after the conclusion of the
program.

World Relief Corporation – World Relief Corporation received an award of $6.3
million to fund agricultural reconstruction activities. The two major project
components are (1) imparting small farm technology through demonstration/
training/technical assistance for agricultural recovery; and (2) re-establishment of
crop collection and marketing services. Under component one, two additional small
farm resource centers are to be created as well as strengthening the centers currently
in use. The training centers will assist farmers with small farm production
technology, integrated pest management, production of seed and vegetative material,
wood production and wood lot management. Component Two, crop collection and
marketing services will provide the marketing infrastructure to ensure efficient
movement of crops from the farmer to the marketplace.

Catholic Relief Services - Catholic Relief Services received a $6.3 million award
from USAID/Nicaragua. These funds, combined with the $3.3 million in CRS cost-



                                                                                       5
                      sharing contributions will fund the following interventions: improvement of
                      agriculture production methods, diversification of crops, storage bins and silos to
                      reduce crop losses and spoilage, simple irrigation systems, reforesting using plant
                      and seedling beds, clearing crop land of large stones, and building water-restraining
                      barriers to slow the down hill flow of water.

                      In addition, CRS will implement a pilot credit program with coffee farmers.



Audit Objectives As part of its fiscal year 2000 audit plan, the Regional Inspector General/San
                      Salvador performed an audit to answer the following questions:

                      •   Are USAID/Nicaragua’s agricultural activities on schedule to achieve the
                          planned outputs?

                      •   Has USAID/Nicaragua implemented an adequate monitoring system for its
                          agricultural activities?

                      The audit scope and methodology is presented in Appendix I.



Audit Findings        Are USAID/Nicaragua’s agricultural activities on schedule to achieve the
                      planned outputs?

                      USAID/Nicaragua’s agricultural activities were on schedule to achieve the planned
                      outputs, except for a planned activity to improve coffee quality, another to create a
                      self-sustaining credit facility, and a program to rehabilitate roads. (See Appendix III
                      for a comparison of planned and actual outputs for each activity as of September 30,
                      2000.)

                      The activities that were not on schedule are discussed in the following sections.

                      Program Element on Coffee
                      Quality Needed To Be Re-Planned

                      The quality of coffee produced by 2,500 small farmers in Nicaragua was to be
                      improved under this element of the CLUSA agreement. However, as of December
                      2000, most elements of this program segment of the work plan were behind
                      schedule. According to USAID/Nicaragua, these delays occurred because it took
                      longer than expected to identify groups that CLUSA could work with to improve
                      coffee quality.

                      Coffee quality was to be improved through the construction and equipping of ten
                      cupping laboratories. (“Cupping” is a method of tasting and grading coffee to


                                                                                                              6
establish the quality of individual lots of coffee to set prices.) CLUSA was also to
train Nicaraguans to staff and manage these laboratories. At the time of our audit,
none of the planned laboratories had been set up and no “cuppers” had been trained.

In addition, CLUSA was to hold coffee fairs to promote the marketing of
Nicaraguan coffee, but these events had not taken place by the end of our audit. The
CLUSA coffee quality representative stated that the coffee fairs could not take place
because the cupping activities had not been implemented. Therefore, CLUSA must
reschedule this program segment in order to meet the objectives of the agreement
within the second year.

       Recommendation No. 1: We recommend that USAID/Nicaragua require
       the Cooperative League of the U.S.A. to redesign the coffee quality
       segment in its 2001 work plan to ensure that its planned activities can be
       implemented and completed prior to the December 31, 2001 scheduled
       program completion date.

Management Comments and Our Evaluation – In its comments on our draft
report, USAID/Nicaragua stated that CLUSA reprogrammed the coffee quality
activities to USAID/Nicaragua’s satisfaction. Accordingly, final action has been
taken on this recommendation.

Residual Credit Funds
Needed To Be Reprogrammed

CLUSA’s agreement called for a planned $4.5 million economic development fund
to be a self-sustaining fund over the long-term. To facilitate this aim, CLUSA was
to seek out partnerships with existing credit entities in Nicaragua that would
continue to manage the credit fund after the end of the Hurricane Mitch
reconstruction program on December 31, 2001. However, CLUSA officials stated
that they were unable to find such a partner and USAID has reduced the credit fund
to $1.1 million. According to a CLUSA official, these developments called into
question the feasibility of establishing a self-sustaining credit fund. Therefore,
USAID/Nicaragua needed to reprogram the remaining credit funds for some use that
would contribute to the reconstruction program.

       Recommendation No. 2: We recommend that USAID/Nicaragua
       determine the estimated funds that will remain in the Cooperative
       League of the U.S.A. credit fund at December 31, 2001 and program
       these funds for an activity that meets the objectives of the Hurricane
       Mitch reconstruction program.

Management Comments and Our Evaluation – In its comments on the draft audit
report, USAID/Nicaragua estimated that $1.35 million will remain in the credit fund
at December 31, 2001. The mission has made the decision to maintain the fund
under the management of a local credit institution to be selected through a bidding



                                                                                       7
process to begin in July 2001. Therefore, a final management decision has been
made for this recommendation. Final action for this recommendation can be
recorded when the award to a local credit institution has been made.

Actions Were Needed to Better Plan
and Monitor Road Construction

As of November 2000, according to CARE officials, CARE had rehabilitated about
321 kilometers of its revised project goal of 850 kilometers. This left 529 kilometers
to be completed before the project completion date of December 31, 2001. In order
to accomplish this goal, CARE needed to (1) complete the selection of the roads to
be rehabilitated, (2) negotiate and sign agreements with the local municipalities
where the roads are located, (3) perform detailed planning for each project selected,
and (4) execute and complete the projects during the dry season in Nicaragua.
CARE officials stated that they had conferred with municipalities regarding possible
work sites but had not yet identified specific roads to be rehabilitated in 2001.
Unless firm milestones for these actions are established, it may not be feasible to
complete the planned outputs before the project completion date.

In discussions with CARE officials during our fieldwork, the officials stated that
they had begun general discussions with municipalities in these areas. However, at
that time, the required agreements needed for the remaining 529 kilometers to be
rehabilitated had not been formally agreed to or signed. Further, the other actions
noted above could not take place until after signature of the agreements. In order to
meet the stated goal of rehabilitating the total 850 kilometers of road called for in the
amended cooperative agreement, CARE needed to establish milestone dates for the
completion of key project tasks to ensure that all activities were accomplished
during the one year remaining in the program.

Another issue concerned the need to reliably map the roads rehabilitated by CARE.
According to the cognizant technical officer, as of November 2000, there was no
reliable means to locate the roads constructed by CARE, or to measure their total
length. The roads rehabilitated by CARE are in very remote areas of Nicaragua and
in order to locate them one had to be escorted by CARE personnel familiar with the
project sites. This provided neither a suitable means to monitor work under the
project, nor a historical record of work for maintenance or reference.

The U.S. Department of Agriculture has provided Global Positioning System (GPS)
mobile units and mapping software to all implementing partners under
USAID/Nicaragua's agriculture program. These units provide an accurate measure
of both the locations and lengths of the roads. U.S. Department of Agriculture
officials stated that CARE had begun to provide information on some of the roads it
has rehabilitated, but no formal agreement was in place to ensure that GPS mapping
information would be provided for all the project sites where they had and would
work. GPS mapping of all the CARE projects would provide the most reliable




                                                                                        8
means to ensure that CARE has provided the quantity of rehabilitated roads
specified in the agreement.

        Recommendation No. 3: We recommend that USAID/Nicaragua:

        3.1     set milestone dates for (a) completion of the site selection for the
                remaining 529 kilometers of road to be rehabilitated, (b)
                completion of the required agreements with municipalities, (c)
                detailed planning for each project selected, and (d) construction
                start and completion dates for all projects in coordination with
                CARE to ensure that they are completed by December 31, 2001;
                and

        3.2     require CARE to provide Global Positioning System mapping of
                all previously completed, present, and future road project sites to
                provide an independently verifiable record of all roads
                constructed.

Management Comments and Our Evaluation – USAID/Nicaragua stated that the
target for road rehabilitation during the activity’s second year has been reduced to
442 kilometers. This reduction in the number of kilometers of road to be
rehabilitated resulted from cost increases from rehabilitating the roads to higher
quality standards. USAID/Nicaragua’s response and the accompanying
documentation indicates that CARE has provided the Mission with substantially all
of the documentation required by recommendation No. 3.1 as well as complete
digital mapping files for all roads completed by CARE as required by
recommendation No. 3.2. Accordingly, final action has been taken for both parts of
recommendation No. 3.

Has USAID/Nicaragua implemented an adequate monitoring system for its
agricultural activities?

We found that the mission had implemented a monitoring system for its agricultural
activities. However, this monitoring system did not meet the requirements of
USAID policy because it did not include a performance monitoring plan or data
reliability assessments of information provided by implementing partners.

The mission took actions to monitor its agricultural activities such as establishing
intermediate results indicators and ensuring that all mission staff (program staff,
cognizant technical officers, and the Mitch reconstruction coordinator) make
frequent field trips to the activity sites and write trip reports to document their visits.
However, the mission did not have a Performance Monitoring Plan for these
activities. We also found that the mission had not conducted data reliability
assessments of secondary information provided by implementing partners, which
was the source of the mission intermediate results indicator reporting data.




                                                                                          9
A Performance Monitoring Plan Was Needed

Section 201.3.4.13.a of the Automated Directives System (ADS) states that missions
must have a written Performance Monitoring Plan (PMP) document for each
strategic objective within one year of strategy approval. At a minimum, PMPs must:

•   provide a detailed description of the performance indicators to be tracked;

•   specify the source, method, and schedule for data collection and assign
    responsibility for data collection to a specific office, team, or individual;

•   describe the known data limitations, discuss the significance of the limitations
    for judging the extent to which goals have been achieved, and describe
    completed or planned actions to address these limitations;

•   describe the quality assessment procedures that will be used to verify and
    validate the measured values of actual performance.

Mission officials told us that the mission did not have a Performance Monitoring
Plan for the special objective for Hurricane Mitch assistance. The mission had
planned to produce performance monitoring plans for each element of its overall
program, but as of December 2000, the plans had not been produced. Mission
officials believed that their intermediate results indicators could be substituted for
the PMP.

The mission did have intermediate results indicators and performed frequent field
trips to the activities. These actions served to satisfy the first two required elements
of the performance monitoring plan described abovedetermining the performance
indicators to be tracked and the source of data for these indicators.

However, as is also shown in the following finding area, the mission needed to take
actions to satisfy the final two elements of the PMP determining the reliability of
data sources and verifying the accuracy of the data. An overall performance
monitoring plan would provide a means to measure monitoring activities against
planned geographic and programmatic monitoring coverage of all activities.

        Recommendation No. 4: We recommend that USAID/Nicaragua
        complete its performance monitoring plan for the Hurricane Mitch
        activities, to include a system (schedule) to track all field visits made by
        staff member, location, and type of activity.

Management Comments and Our Evaluation – In its comments on the draft audit
report, USAID/Nicaragua stated that it has completed a Performance Monitoring
Plan in accordance with the requirements of the ADS. In addition, cognizant
technical officers generally prepare monthly schedules for site visits. Accordingly,
final action has been taken for this recommendation.


                                                                                         10
Data Reliability Assessments Were Needed

As stated above, the mission had defined Intermediate Results indicators for its
reconstruction activities. The implementing partners are the source for all
information used in the reporting for all indicators. In accordance with ADS Section
203.3.6.6.a, this is considered secondary information and the mission needed to
perform an assessment of the reliability of the information. As of December 2000,
no such assessment had been performed. The mission had instead focused on
critically evaluating the required quarterly progress reports and ensuring proper and
accurate reporting by ongoing communication and frequent monitoring visits. The
aim of these data reliability assessments is to determine how much confidence the
mission can have that the data is usable for management and reporting purposes.
Without such assessments the mission can not state with assurance that the
performance information it reports on program results is reliable.

       Recommendation No. 5: We recommend that USAID/Nicaragua
       perform data reliability assessments of the performance tracking
       systems and information reported by each of the implementing
       partners.

Management Comments and Our Evaluation – USAID/Nicaragua stated that,
in accordance with its Performance Monitoring Plan, contract technical officers,
other mission staff, and other U.S. Government agencies (the Department of
Agriculture, the Army Corps of Engineers, and the National Oceanic and
Atmospheric Agency) are conducting site visits to test the accuracy of reported
information. Therefore, final action has been taken on this recommendation.




                                                                                   11
                                                                                       Appendix I


Scope and     Scope
Methodology
              We audited USAID/Nicaragua’s agricultural activities in accordance with
              generally accepted government auditing standards. The fieldwork was conducted
              at USAID/Nicaragua from October 23, 2000 through December 7, 2000. Our
              audit included site visits to the Nicaraguan departments of Esteli, Matagalpa, and
              Jinotega. In our assessment of internal controls we determined audit risk to be low
              to moderate. We used this assessment as the basis for determining the number of
              site visits we would make. We selected a judgmental sample of 10 of 118
              community operating areas covered by the audited activities. The site visits
              covered all five implementing partners.

              The audit focused on agriculture activities funded with $35.2 million from the
              supplemental appropriation for the Central America and the Caribbean
              Emergency Disaster Recovery Fund. The activities were carried out by the
              Cooperative League of the U.S.A. (CLUSA), CARE, Catholic Relief Services
              (CRS), Chemonics, and World Relief Corporation (WRC).

              Methodology

              To answer the audit objectives, we interviewed responsible officials and reviewed
              relevant documentation at USAID/Nicaragua and the five implementing entities.

              To determine whether agricultural activities were on schedule to achieve planned
              outputs, we reviewed documentation at USAID/Nicaragua that included project
              design documents and the strategic objective grant agreement and its annexes.
              We also reviewed the agreements for each of the five implementing partners that
              included the project’s activity description. These documents provided the
              project’s funding, listed the expected outputs and identified the project timeframe.
              In addition, we reviewed work plans, quarterly progress reports, and records of
              site visits made by USAID/Nicaragua personnel to the reconstruction areas.
              Further, we performed site visits to project sites to determine the extent of
              progress made to date on the agricultural activities. For the purposes of this audit,
              we determined performance to be on schedule if actual outputs were within 25
              percent of planned outputs as of September 30, 2000. In establishing this
              threshold, we made judgments about the level of performance that was practical
              and attainable for the audited activities.

              To determine whether USAID/Nicaragua had implemented an adequate
              monitoring system for the activity, we interviewed USAID/Nicaragua project
              officials to determine what monitoring mechanisms are in place. As stated above,
              we also obtained copies of status reports provided by the five implementing
              entities and site visit reports prepared by USAID/Nicaragua personnel.




                                                                                                 12
                                                                                     Appendix II



Management
Comments
                                                              29 Jun 2001



      Mr. Tim Cox
      Regional lnspector General/San Salvador
      USAID/Office of the Regional Inspector General
      San Salvador, El Salvador

      Dear Mr. Cox:

      SUBJECT:         Audit of USAID/Nicaragua's Agricultural Activities
                       Report No. 1-524-01-0XX-P

      Thank you for the opportunity to comment on the draft audit report, which contains
      five recommendations. Please see the attached for the Mission's comments.

      I appreciate the excellent working relationship that your auditors have with Mission
      management and personnel.

                                               Sincerely,



                                              Marilyn Zak
                                               Director



      Attch.




                                                                                              13
                                                                                Appendix II

                                USAID/NICARAGUA
                    RIG Audit of Nicaragua’s Agricultural Activities
                        Response to RIG'S Recommendations

Recommendation 1: We recommend that USAID/Nicaragua require the Cooperative
League of the U.S.A. (CLUSA) to redesign the coffee quality segment in its 2001 work
plan to ensure that its planned activities can be implemented and completed prior to
December 31,2001 scheduled program completion date.

USAID/Nicaragua agrees with the terms of recommendation # 1 and in order to close it the
following actions have been taken;

The Mission has received CLUSA's 2001 work plan. CLUSA has appropriately
reprogrammed the activities to USAID's satisfaction for year 2001. The delays for
implementing the activities during year 2000 were due to a slow learning process. In fact,
most efforts during 2000 were oriented to coffee field management and identifying groups
that could be educated and oriented toward coffee quality improvement through improved
production practices and the use of centralized wet mills. These were key activities that had
to be realized before further investments could be made and to avoid establishing facilities
or structures that in the near future would not be adequately used by the beneficiaries due to
lack of training and/or knowledge.

CLUSA has taken appropriate action and successfully met most of the proposed targets as
follows:

1)    Establishment of five centralized ecological wet mills: Three are completed and have
      processed part of the 2000-2001 coffee harvest, and two are under construction and
      are scheduled to be comp1eted in August 2001.

2)    Installation of nine coffee-cupping mini-laboratories in Nueva Segovia: The nine
      coffee-cupping laboratories are completed and will enable more than 40 cooperatives
      and small farmer groups to taste and to compare coffee quality during the 2001-2002
      harvest season.

The wet mills are already reducing processing and labor costs to the benefited cooperatives.
Another benefit accrued to these cooperatives has been an improvement and consistency in
coffee quality. This quality enhancement has allowed them to sell their coffee at a better
price; from NYC-9, the standard price for Nicaragua, to NYC+9. Buyers have demonstrated
their willingness to pay a bonus differential for high quality.

We request that the recommendation be considered resolved and closed.

                                            -1-




                                                                                           14
                                                                                 Appendix II

Recommendation 2: We recommend that USAID/Nicaragua determine the estimated
funds that will remain in the Cooperative League of the U.S.A. credit fund at
December 31, 2001 and program these funds for an activity that meets the objectives of
Hurricane Mitch reconstruction program.

USAID/Nicaragua agrees with the audit report recommendation # 2 and in order to close it
the following actions have been taken:

The Mission estimates that approximately US$1.35 million will remain in the CLUSA credit
fund at December 31,2001, and has made the decision to maintain the credit fund, but under
the management of a local credit institution. USAID will solicit bids from local credit
institutions to continue managing this fund beyond December 31, 2001. It is the Mission’s
intention to institutionalize a system to ensure that small coffee producers have at least
limited access to credit to improve coffee quality, beyond the Mitch program.

The CLUSA credit program main successes are:

1)    Financing the construction of five centralized ecological wet mills for coffee
      cooperatives: The loans averaged $50,000 each. The cooperatives have kept up with
      their scheduled payments. These cooperatives would not have qualified for financing
      through the formal banking system.

2)    A $38,000 loan to small farmers with the purpose of planting 21 manzanas of organic
      onions under a contract farming arrangement with Soledad Organics in Sébaco. The
      participating farmers made an average net income of $5,580 each. This increase in
      income carried the participants well above the poverty line. Again, these small
      farmers would have never received a loan within the formal credit system.

Disposition of the fund:

USAID/Nicaragua has made the decision to maintain the credit fund but managed by a local
credit institution. The credit will be available to fund the aforementioned activities, coffee
quality improvement and credit for high value crops. To achieve this objective an open
bidding process will be carried out with established micro-finance institutions or NGOs that
have rural credit programs and that are already self-sustainable (See invitation for bids
format-Attachment I).

This bidding process should begin during July, 2001 which will allow sufficient time for a
smooth transition of the fund to the institution selected to operate it.

We request that the recommendation be considered resolved and closed.

Recommendation 3.1: Set milestone dates for (a) completion of the site selection for the
remaining 510 kilometers of road to be rehabilitated, (b) completion of the required
Agreements with municipalities, (c) construction start and completion
                                         -2-



                                                                                             15
                                                                                 Appendix II

dates for all projects in coordination with CARE to ensure that they are complete as
of December 31,2001.

USAID/Nicaragua agrees with the audit report that recommendation # 3.1 could
contribute to the success of the “cash for work" road reconstruction program being
implemented by CARE. In order to close this recommendation the following actions
have been taken:

CARE has provided USAID/Nicaragua with the necessary documentation for the 442
kms of roads rehabilitated during Year 2 of the program. The target for this year activity
has been reduced to about 13% (68 kms of road). The reduction in the amount of
kilometers from the original target (510 kilometers) is a direct result of the cost
increase per kilometer being reconstructed. This modification was necessary in order to
meet
USAID quality standards, assure the durability of these roads under hard tropical weather
conditions, and take into consideration the rough and irregular terrain.

As described in the attached table (Attachment II). CARE has negotiated and signed
maintenance agreements with participating communities and municipalities. The final
eight agreements will be signed no later than July 31 covering all 442 kms of road
rehabilitated during year 2. According to the implementation plan, all projects will be
completed three months prior to the Mitch completion date of December 31, 2001.
Program implementation dates show enough lead time to compensate for any delays that
could occur during the construction period. Also, prior experience from CARE
implementation of Year 1 activities, gives us confidence that CARE has the required
expertise and capabilities to complete this program according to schedule and before the
end of the Mitch program.

USAID/Nicaragua is providing close follow-up of this project to assure quality standards
are met and the project will be completed on schedule. USAID is providing constant
field supervision from the cognizant technical officer, a qua1ified-experienced US civil
engineer, and the Mitch program coordinator.

USAID/Nicaragua staff and evaluators that visited these activities, agree that the CARE
“cash for work” road rehabilitation program is being well implemented. USAID requires
that quality standards be met to assure road durability for several years and insists that
adequate maintenance procedures are developed by participating communities.

We request that the recommendation be considered resolved and closed.

Recommendation 3.2: Require CARE to provide Global Positioning System (GPS)
mapping of all previously completed, present and future road project sites to
provide an independent verifiable record of all roads constructed.


                                            -3-



                                                                                             16
                                                                                Appendix II

USAID/Nicaragua agrees with the audit report that the GPS mapping would provide an
independent verifiable record of all roads constructed. In order to close this
recommendation the following actions have been taken:

In compliance with the audit findings, USAID/Nicaragua has developed a Global
Positioning System (GPS) mapping to provide an independent verifiable record of all
roads reconstructed by CARE under the Mitch program. Currently, the Reconstruction
Office has a complete file of all the roads completed by CARE. With these digital files
USAID/Nicaragua has fully complied with the above-mentioned recommendation.

The Global Positioning System is a rather new innovative way of accurately positioning
sites in digital maps. USAID/Nicaragua adopted this system as a “best practice"
procedure to further strengthen the monitoring and evaluation of this segment of the
Mitch program.

We request that the recommendation be considered resolved and closed.

Recommendation Number 4: We recommend that USAID/Nicaragua complete its
performance monitoring plan (PMP) for the Hurricane Mitch activities, to include a
system (schedule) to track all field visits made by staff member, location, and type of
activity.

The Mission agrees with the need to complete a P.M.P. and to ensure the field visits are
integrated into this plan.

The Mission has completed a Performance Monitoring Plan consistent with the
requirements of ADS 200, and is addressing each of the four elements in the draft audit
report. CTOs assure that quality standards are met and implementation activity is results-
oriented. Indicator tables are prepared to track project performances. The CTOs
generally prepare monthly schedules for site visits. These schedules are used as guides
and are frequently modified to prioritize their time based on unforseen demands from the
Mission or AID/Washington. Site visits under taken by the CTOs to ensure
implementation and quality of completion is in accordance with objectives. Although the
Mission solution to the problem differs from the recommended solution (establish a
Mission-wide system to track all field visits by staff member, location, and type of
activity, the Mission solution was determined to be satisfactory by a second team of RIG
auditors examining another facet of the Mission Mitch Reconstruction Program.

The Mission believes that the objectives of this recommendation are being met and we
request that the recommendation be considered resolved and closed.

Recommendation No. 5: We recommend that USAID/Nicaragua perform data
reliability assessments of the performance tracking systems and information
reported by each of the implementing partners.

                                             -4-



                                                                                             17
                                                                                     Appendix II

USAID/Nicaragua agrees with the terms of recommendation # 5 and in order to close it,
the following actions have been taken:

USAID/Nicaragua has prepared a Mission Performance Monitoring Plan to guide the
Cognizant Technical Officers (CTOs) in assuring that quality standards are met and that
implementation activity is results-focused. Indicator tables were prepared to track project
performance. The tables describe in detail the expected results and intermediate results to
adequately measure progress. To the maximum extent practical, qualitative generic
intermediate results were jointly established with the partners. While the implementing
entities are required to report on progress or lack of it, in their quarterly reports, it is the
responsibility of the CTOs to test and verify the accuracy of this information during field
visits. Responses to all quarterly reports are prepared and include comments on the
reliability of the information contained in the reports in addition to the CTOs personal
observations obtained from field trips. Mission responses include comments pertaining
to progress towards meeting results and the effectiveness in complying with established
indicators. When deficiencies are observed, either in the quarterly reports or from site
visits, Mission written responses offer suggestions to strengthen implementation
procedures in order to resolve concerns which if ignored could become serious issues. In
addition to providing comments on quarterly reports site visit reports are prepared and
distributed within the Mission. Since these reports are for internal use they are not
distributed to the partners but rather the contents of the reports are discussed with
appropriate partner staff at both the central and regional level. While the CTOs generally
prepare monthly schedules for site visits, these schedules are used as a guide and are
frequently modified to prioritize one's time based on unforeseen demands for information
from within the Mission or USAID/Washington.

The indicator tables mentioned above specify the source, method and responsibility for
data collection and specifies the office, team or individual.

        The quality assessment procedures used to verify and validate performance are
        site visits by the CTOs, the Reconstruction Office, and other USG agencies
        (USDA, Army Corps of Engineers, and NOAA).

        Expanded Intermediate Result SO meetings are generally held on a monthly basis
        with our partners to discuss implementation issues and concerns. The usefulness
        and of the indicators frequently is a discussion topic. Additionally, workshops are
        held for specific topics such as road and infrastructure activity to ensure that
        quality standards are complied with, during activity construction.

        Finally USAID funded an independent analysis of performance by a team fielded
        by Chemonics an U.S. contractor.

In our opinion the Mission has established the procedures to adequately perform data
reliability assessments of the performance tracking systems and to perform reality checks

                                               -5-



                                                                                                   18
                                                                               Appendix II

on the information reported by our partners. Therefore, we request that this
recommendation be considered resolved and closed.




                                             -6-



                                                                                        19
                                                                                        Appendix III


        Planned Versus Actual Outputs for USAID/Nicaragua's Agricultural Activities

              Outputs                  Gender     Planned      Actual      Percent of       On
                                                  through     through      Completion    Schedule?
                                                  9/30/00     9/30/00


CARE
No. of farmers and micro-                  Male       9,033       10,778         119%       Yes
entrepreneurs who received
benefits from USAID
reconstruction assistance.
                                         Female       2,258        2,696         119%       Yes

No. of individuals participating in        Male       4,996        6,715         134%       Yes
food-for-work/cash-for-work
programs.
                                         Female       1,241        2,031         164%       Yes

Kilometers of farm-to-market roads                      450         321           71%        No
rehabilitated.
Kilometers of additional farm-to-                       673         565           84%       Yes
market roads opened up due to
rehabilitation efforts
No. of communities benefiting from                      218         220          101%       Yes
the repair of farm-to-market roads
No. of households benefiting from                    11,291       13,142         116%       Yes
the repair of farm-to-market roads



Cooperative League of the USA
No. of farmers and micro-                  Male       6,400        5,565          87%       Yes
entrepreneurs who received
benefits from USAID
reconstruction assistance.
                                         Female       1,600        1,391          87%       Yes
No. of farmers adopting soil               Male       4,800        3,844          80%       Yes
conservation and sustainable
agricultural production practices
                                         Female       1,200        1,148          96%       Yes

No. of small producers assisted            Male       1,600         899           56%        No
with USAID-financed credit
                                         Female         400         197           49%        No
Surface area of watersheds (in                        1,200         800           67%        No
hectares) protected by stabilization
investments




                                                                                                  20
                                                                             Appendix III

Chemonics
No. of farmers and micro-                        10,746      13,474   125%       Yes
entrepreneurs who received
benefits from USAID
reconstruction assistance.


Catholic Relief Services
No. of farmers and micro-            Male          6,416     12,750   199%       Yes
entrepreneurs who received
benefits from USAID
reconstruction assistance.
                                     Female        6,224      6,224   100%       Yes

No. of farmers adopting              Male          4,158      8,698   209%       Yes
environmentally sustainable
agricultural practices.
                                     Female        1,385      2,724   197%       Yes

No. of small producers assisted      Male          2,258      4,052   179%       Yes
with USAID-financed credit
                                     Female        5,239      3,500    67%       No
No. of loans disbursed to            Male          3,565      6,320   177%       Yes
agricultural producers
                                     Female       9,194       5,374    58%       No
Dollar value of loans disbursed to   Male      $625,889    $963,474   154%       Yes
agricultural producers
                                     Female   $1,460,407   $818,112   56%         No


World Relief Corporation
No. of farmers and micro-            Male          2,692      3,315   123%       Yes
entrepreneurs who received
benefits from USAID
reconstruction assistance.
                                     Female        1,058      1,168   110%       Yes


No. of farmers adopting              Male          1,192      1,746   146%       Yes
environmentally sustainable
agricultural practices.
                                     Female         279        435    156%       Yes

Surface area of land reformed or                    100        127    127%       Yes
rehabilitated (in manzanas)
Kilometers of farm-to-market roads                   18         11    61%         No
rehabilitated
No. of households benefiting from Male              170        140    82%        Yes
the repair of farm-to-market roads.
                                    Female           40         40    100%       Yes
No. of small producers assisted      Male          1,500      2,535   169%       Yes
with USAID-financed credit



                                                                                       21
                                                                           Appendix III
                                     Female        500        334    67%       No
No. of loans disbursed to            Male        2,550      2,782   109%       Yes
agricultural producers
                                     Female        450        287   64%        No
Dollar value of loans disbursed to   Male     $511,631   $484,649   95%        Yes
agricultural producers
                                     Female    $44,489    $54,649   123%       Yes




                                                                                     22
